In the Supreme Court of the United States
_____________
No. 21-5592
JOHN H. RAMIREZ, PETITIONER
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
(CAPITAL CASE)
_____________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

_____________
MOTION TO FILE VOLUME II OF
JOINT APPENDIX UNDER SEAL

_____________
Pursuant to Rule 21 of the Rules of this Court, respondents respectfully move for leave
to file under seal Volume II of the parties’ joint appendix. *
1. This case arises from a lawsuit filed by petitioner challenging his execution scheduled for September 8, 2021. Petitioner sought a stay of execution. The district court and the
court of appeals denied petitioner’s requests for a stay of execution. Petitioner filed an application for a stay and a petition for a writ of certiorari in this Court. On September 8, 2021,
this Court granted both the application and the petition and directed the Clerk to set the
case for oral argument. On September 9, 2021, the Court established an expedited briefing

*

Petitioner consents to this motion. Pursuant to Rule 29.6 of the Rules of this Court,
no corporate disclosure statement is required.

schedule and set the case for argument on November 1, 2021. On September 10, 2021, the
Court directed the parties to address, inter alia: (1) whether petitioner adequately exhausted his audible prayer claim under the Prison Litigation Reform Act; (2) whether petitioner has satisfied his burden under the Religious Land Use and Institutionalized Persons
Act to demonstrate that a sincerely held religious belief has been substantially burdened
by restrictions on either audible prayer or physical contact; (3) whether the government
has satisfied its burden to demonstrate its policy is the least restrictive means of advancing
a compelling government interest; and (4) the type of equitable relief petitioner is seeking,
the appropriate standard for this relief, and whether that standard has been met here.
The record in this case includes the reply in support of a stay of execution filed by petitioner in the district court. The reply contains information that is of a highly confidential
nature, including information identifying prison personnel involved in executions. If publicly disclosed, this information represents a security risk. The reply was placed under seal
by the district court.
2. In conjunction with the filing of petitioner’s brief, petitioner will file a two-volume
joint appendix. Volume I of the joint appendix includes the relevant docket entries and
other items designated by the parties. Volume II of the joint appendix contains the reply.
Respondents move for leave to file Volume II of the joint appendix under seal to protect the
sensitive information contained in the reply.

2

Respectfully submitted.
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant
Attorney General
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
[Tel.]: (512) 936-1700
[Fax]: (512) 474-2697
Judd.Stone@oag.texas.gov

/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy
Solicitor General
BENJAMIN D. WILSON
Deputy Solicitor General
ARI CUENIN
ERIC J. HAMILTON
NATALIE D. THOMPSON
Assistant Solicitors General

Counsel for Respondents
SEPTEMBER 22, 2021

3

